U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Melvin Whitehead v. United States of America,
S.Ct. No. 20-5278

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 31,
2020, and placed on the docket on August 5, 2020. The government’s response is due on
September 4, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 5, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5278
WHITEHEAD, MELVIN
USA

PEGGY SASSO
OFFICE OF THE FEDERAL DEFENDER
2300 TULARE STREET
STE. 330
FRESNO, CA 93721
559-487-5561
PEGGY_SASSO@FD.ORG

